1a
APPENDIX A
United States Court of Appeals, Sixth Circuit
LIBERTARIAN PARTY OF OHIO and Harold
Thomas, Plaintiffs-Appellants,
v.
Degee WILHEM, Helen E. Balcolm, Otto Beatty, III,
Dennis Brommer, Don Michael Crites, Catherine A.
Cunningham, and A. Scott Norman, in their official
capacities, Defendants-Appellees.
No. 20-3585
Argued: August 24, 2020
Decided and Filed: February 10, 2021
Appeal from the United States District Court for
the Southern District of Ohio at Columbus. No. 2:19cv-02501—Algenon L. Marbley, District Judge.
ARGUED: Mark R. Brown, Columbus, Ohio, for
Appellants. Michael J. Hendershot, OFFICE OF
THE OHIO ATTORNEY GENERAL, Columbus,
Ohio, for Appellees. ON BRIEF: Mark R. Brown, Columbus, Ohio, for Appellants. Michael J. Hendershot, Benjamin M. Flowers, OFFICE OF THE OHIO
ATTORNEY GENERAL, Columbus, Ohio, for Appellees.
Before: GRIFFIN, KETHLEDGE, and WHITE,
Circuit Judges.
GRIFFIN, Circuit Judge.
Ohio law mandates that the Ohio Elections Commission (OEC) be composed of three members from
each of the top two political parties in the state, and
an additional seventh member who cannot have any

2a
political affiliation. See Ohio Rev. Code §
3517.152(A)(1). The Libertarian Party of Ohio (LPO)
and its former chairman, Harold Thomas, contend
this law violates their First Amendment right to associate for political purposes. The district court disagreed, and we affirm.
I.
A.
Plaintiff Harold Thomas is the former chairman of
the Libertarian Party of Ohio and a current member
of the LPO. 1 During the 2020 election season, the
LPO was a minor political party recognized in Ohio,
but it lost its status by not receiving a sufficient
share of the vote in the 2020 general election. Defendants are the appointed members of the Ohio
Elections Commission (OEC or the Commission) and
have been sued in their official capacities.
“[T]he Commission is an independent agency consisting of seven members, six of whom are appointed
by the governor on the recommendation of the combined state House and Senate caucuses of the major
political parties. Three members are appointed from
each of the two major political parties and the seventh is an unaffiliated elector appointed by the other
six members.” Project Veritas v. Ohio Election
Comm’n, 418 F. Supp. 3d 232, 236–37 (S.D. Ohio
2019). All members of the OEC serve five-year
terms. The OEC enforces Ohio’s campaigning and
election laws. It may investigate complaints, issue
fines, and publish advisory opinions on matters of
Ohio election law. See id. It is also empowered to reThomas resigned his executive position while this appeal was
pending.
1

3a
fer criminal violations of Ohio’s election law to county prosecutors. See Ohio Admin. Code § 3517-1-14(B)(3) and (C).
The procedure for selecting OEC Commissioners
is set forth in Ohio Revised Code § 3517.152(A)(1):
There is hereby created the Ohio elections
commission consisting of seven members.
... [T]he speaker of the house of representatives
and the leader in the senate of the political party of which the speaker is a member shall jointly submit to the governor a list of five persons
who are affiliated with that political party. ...
[T]he two legislative leaders in the two houses
of the general assembly of the major political
party of which the speaker is not a member
shall jointly submit to the governor a list of five
persons who are affiliated with the major political party of which the speaker is not a member. Not later than fifteen days after receiving
each list, the governor shall appoint three persons from each list to the commission.
***
Not later than thirty days after the governor
appoints these six members, they shall, by a
majority vote, appoint to the commission a seventh member, who shall not be affiliated with a
political party. If the six members fail to appoint the seventh member within this thirtyday period, the chief justice of the supreme
court, not later than thirty days after the end of
the period during which the six members were
required to appoint a member, shall appoint the
seventh member, who shall not be affiliated
with a political party.

4a
As defendants observe, § 3517.152(A)(1) does not
restrict the partisan seats to any specific party. Instead,
three members will be selected from any party
that wins enough seats in the legislature to
qualify as one of the State’s two major parties.
Thus, the parties to this appeal do not dispute
that, if “a minor party” builds “its base and become[s] one of the two major parties in the
state,” it would secure “an avenue for its members to serve on the Elections Commission.”
Rightly so: though the statute does not say so
expressly, it is implicit in the statute’s partyneutral design that a political party, upon losing its major-party status, loses to the new major party its ability to nominate members to fill
seats for which the term has expired.
Record citations omitted. Based on this procedure
and Ohio’s election results, there are presently three
Republican commissioners, three Democrat commissioners, and one commissioner with no party affiliation. See Ohio Elections Commission, Members/Staff,
available at https://elc.ohio.gov/wps/portal/gov/elc/
about-us/membership-staff (last visited Feb. 4,
2021).
B.
In the lead-up to Ohio’s 2018 gubernatorial election, three organizations hosted televised debates
between the nominees chosen by the Democratic
Party and the Republican Party, to the exclusion of
other candidates, including the ballot-qualified nominee of the LPO. In September 2018, the LPO filed
administrative complaints with the OEC, alleging

5a
that each of the organizations hosting those debates
had violated Ohio’s campaign-finance laws because
the exclusive debates between major-party candidates were illegal, in-kind campaign contributions.
See Ohio Rev. Code § 3599.03. But in December
2018, the OEC found no violation and dismissed the
administrative complaints.
The LPO and Thomas then sued the individual
commissioners of the OEC in their official capacities,
alleging violations of their First and Fourteenth
Amendment rights. As relevant here, plaintiffs alleged that § 3517.152(A)(1) violated their First
Amendment associational rights because it rendered
LPO members ineligible for service on the OEC. 2
The district court entered summary judgment in defendants’ favor, reasoning § 3517.152(A)(1) withstood constitutional scrutiny under either of two potential frameworks. This timely appeal followed.
II.
We review the district court’s summary judgment
determination de novo. Thomas M. Cooley Law Sch.
v. Kurzon Strauss, LLP, 759 F.3d 522, 526 (6th Cir.
2014). Summary judgment is appropriate only if “the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a).
III.
Initially, we must address defendants’ assertion,
Plaintiffs also alleged selective enforcement of Ohio’s campaign finance laws. The district court dismissed those claims
for lack of standing, and plaintiffs do not challenge that ruling
on appeal.
2

6a
first raised on appeal, that plaintiffs lack standing.
The “irreducible constitutional minimum” of standing consists of three elements. Lujan v. Defenders of
Wildlife, 504 U.S. 555, 560, 112 S.Ct. 2130, 119
L.Ed.2d 351 (1992). Plaintiffs must have (1) suffered
an injury in fact, (2) that is fairly traceable to the
challenged conduct of the defendant, and (3) that is
likely to be redressed by a favorable judicial decision.
Id. at 560–561, 112 S.Ct. 2130. Absent these three
elements, a plaintiff has failed to show a present
“case or controversy” that we are authorized to adjudicate under Article III of the Constitution. Id. at
560, 112 S.Ct. 2130 (“[T]he core component of standing is an essential and unchanging part of the caseor-controversy requirement of Article III.”). Therefore, even though the failure to raise an issue before
the district court usually renders it forfeited on appeal, see, e.g., F.T.C. v. E.M.A. Nationwide, Inc., 767
F.3d 611, 630 (6th Cir. 2014), we must consider
plaintiffs’ standing because it implicates our subjectmatter jurisdiction, see Spokeo, Inc. v. Robins, –––
U.S. ––––, 136 S. Ct. 1540, 1547, 194 L.Ed.2d 635
(2016), and such defects cannot be forfeited, see
United States v. Cotton, 535 U.S. 625, 630, 122 S.Ct.
1781, 152 L.Ed.2d 860 (2002) (“[D]efects in subjectmatter jurisdiction require correction regardless of
whether the error was raised in district court.”).
The OEC offers several reasons why plaintiffs
have not demonstrated their standing to challenge §
3517.152(a). First, it says that Thomas, as LPO
chairman, was not eligible for membership on the
Commission at the time the lawsuit was filed under
a separate provision of § 3517.152. Specifically, defendants point out that Ohio law prohibits political
party officers from serving on the OEC. See Ohio

7a
Rev. Code § 3517.152(F)(1)(c) (“No member of the
Ohio elections commission shall ... [b]e an officer of
the state central committee, a county central committee, or a district, city, township, or other committee of a political party or an officer of the executive
committee of the state central committee, a county
central committee, or a district, city, township, or
other committee of a political party[.]”). While
Thomas is no longer the chairman of the LPO, standing must exist from the outset of the suit, so if
Thomas lacked Article III standing at the time the
complaint was filed, his resignation of the chairmanship cannot cure the defect. See Smith v. Jefferson
Cty. Bd. of Sch. Comm’rs, 641 F.3d 197, 206 (6th Cir.
2011).
But Thomas had standing at the outset of the suit.
As the OEC concedes, Thomas “has introduced evidence that he would like to be on the Ohio Elections
Commission[,]” but his membership in the Libertarian Party prevents him from being considered for the
seventh commission seat. Under these circumstances, “a plaintiff need not translate his or her desire for
a job into a formal application” because “that application would be merely a futile gesture.” Carney v.
Adams, ––– U.S. ––––, 141 S. Ct. 493, 503, –––
L.Ed.2d –––– (2020) (internal quotation marks,
brackets, and citation omitted). 3 Further, the sepaIn Carney, the Supreme Court concluded that a Democratturned-independent did not have standing to challenge Delaware’s “major party” requirement, which mandated the state’s
judges be a member of either of the two most popular political
parties. Carney, 141 S. Ct. at 498–503. The Court reached this
conclusion by observing in part that the plaintiff had not applied to any of 14 judicial openings for which he would have
been eligible as a Democrat between 2012 and 2016, and that

3

8a
rate provision § 3517.152 poses no obstacle to Thomas’s eligibility because it prohibits a person only from
simultaneously holding public office as an OEC
commissioner and a leadership position in a political
party. See § 3517.152(F)(1)(c). Accordingly, if Thomas had been selected for a seat on the OEC, he could
have resigned his party leadership role (and has now
done so while this appeal was pending). Thus, the
record demonstrates that Thomas has standing to
challenge § 3517.152(A)(1), and further discussion of
plaintiffs’ standing is unnecessary to our resolution
of the suit. See Mays v. LaRose, 951 F.3d 775, 782
(6th Cir. 2020).
IV.
Moving now to the merits, we recognize that there
are arguably two frameworks that plaintiffs may invoke to establish a violation of their First Amendment rights—Anderson-Burdick and the unconstitutional-conditions doctrine. However, we limit our
holding to the latter because the parties agree that
we should forego application of Anderson-Burdick to
plaintiffs’ claim. 4 See Appellant’s Opening Br. at 48
his decision to switch his political affiliation from Democrat to
unaffiliated independent “made it less likely that he would become a judge[,]” but more likely that he could “vindicate his
view” that Delaware’s major party requirement was unconstitutional. Id. at 501.
4 In a recent case, we declined to decide which of these frameworks applied to First and Fourteenth Amendment challenges
brought against the criteria for government service on Michigan’s Independent Citizens Redistricting Commission. Daunt v.
Benson, 956 F.3d 396, 406 (6th Cir. 2020). While some may
harbor doubts over the applicability of Anderson-Burdick to
such cases because the challenged law neither regulates the
administration of elections nor burdens voting rights, see id. at

9a
(“LPO does not believe it necessary to apply the Anderson-Burdick formula here. ...”); Reply at 28 (“LPO
does not believe Anderson-Burdick needs [to] be used
in this case.”); Appellee’s Br. at 49 (“[T]he Court
should refuse to apply Anderson-Burdick.”).
A.
The unconstitutional-conditions doctrine prevents
the government from denying a benefit on the basis
of a person’s constitutionally protected speech or associations. See Perry v. Sindermann, 408 U.S. 593,
597, 92 S.Ct. 2694, 33 L.Ed.2d 570 (1972). In Perry,
the Court explained that the government
may not deny a benefit to a person on a basis
that infringes his constitutionally protected interests—especially, his interest in freedom of
speech. For if the government could deny a
benefit to a person because of his constitutionally protected speech or associations, his exercise of those freedoms would in effect be penalized and inhibited. This would allow the government to produce a result which it could not
command directly. Such interference with constitutional rights is impermissible.
Perry, 408 U.S. at 597, 92 S.Ct. 2694 (alteration and
internal citation omitted). In a trio of cases, the Supreme Court has employed the unconstitutional conditions doctrine to examine the tension between governmental patronage practices—hiring and firing
based on political affiliation—and the First Amendment rights of individuals. Those cases warrant further discussion.
422–24, 429–31 (Readler, J. concurring), we leave that matter
for another day when it is properly before the court.

10a
First, in Elrod v. Burns, Justice Brennan wrote
for a plurality of the Court and held that patronage
dismissals violated the First and Fourteenth
Amendments because they amounted to the government conditioning employment on particular political affiliations, and thus “severely restrict[ed]” the
employees’ right to “political belief and association.”
427 U.S. 347, 372, 96 S.Ct. 2673, 49 L.Ed.2d 547
(1976). However, the plurality also acknowledged
that First Amendment protections were “not ... absolute[,]” and that patronage dismissals did not violate
the First Amendment in “policymaking positions.”
Id. at 360–61, 367–68, 96 S.Ct. 2673. Concurring in
the judgment, Justices Stewart and Blackmun would
have decided the case on narrower grounds: “[A]
nonpolicymaking, nonconfidential government employee” could not be discharged solely because of his
political beliefs under Perry. Id. at 375, 96 S.Ct. 2673
(Stewart, J., concurring in the judgment).
The Court then built upon Elrod in Branti v.
Finkel, 445 U.S. 507, 100 S.Ct. 1287, 63 L.Ed.2d 574
(1980). There, the issue was whether the dismissal of
two assistant public defenders for their political affiliation violated the First Amendment, or whether the
plaintiffs fit within Elrod’s policymaking exception.
Id. at 510–11, 100 S.Ct. 1287. The Court clarified
that “the ultimate inquiry is not whether the label
‘policymaker’ or ‘confidential’ fits a particular position; rather, the question is whether the hiring authority can demonstrate that party affiliation is an
appropriate requirement for the effective performance of the public office involved.” Id. at 518, 100
S.Ct. 1287. “As one obvious example,” the Court explained, “if a State’s election laws require that precincts be supervised by two election judges of differ-

11a
ent parties, a Republican judge could be legitimately
discharged solely for changing his party registration.” Id. With this understanding, the Court held
that the patronage dismissals of the plaintiffs violated the First Amendment because “[t]he primary, if
not the only, responsibility of an assistant public defender is to represent individual citizens in controversy with the State.” Id. at 519, 100 S.Ct. 1287.
Finally, in Rutan v. Republican Party of Illinois,
the Court considered “whether promotion, transfer,
recall, and hiring decisions involving low-level public
employees may be constitutionally based on party
affiliation and support.” 497 U.S. 62, 65, 110 S.Ct.
2729, 111 L.Ed.2d 52 (1990). The case arose out of a
system of patronage instituted by the Governor of
Illinois by imposing a state-wide hiring freeze and
then requiring that any exception to the freeze receive his “express permission.” Id. When determining whether permission should be granted, the governor’s office looked at whether the applicant voted
in his party’s primaries, provided financial or other
support to his party, had joined or promised to work
for the party in the future, and whether the applicant was supported by local party officials. Id. at 66,
110 S.Ct. 2729. Moreover, state officials also allegedly used party affiliation to make decisions about recalling laid-off employees and when selecting employees for promotions. Id. at 67, 110 S.Ct. 2729. The
Supreme Court held “that the rule of Elrod and
Branti extends to promotion, transfer, recall, and
hiring decisions based on party affiliation.” Id. at 79,
110 S.Ct. 2729.
B.
As discussed above, the touchstone of our inquiry

12a
is “whether the hiring authority can demonstrate
that party affiliation is an appropriate requirement
for the effective performance of the public office involved.” Branti, 445 U.S. at 518, 100 S.Ct. 1287.
However, we do not write on a blank slate; our precedent fills in many of the gaps for determining
whether or not party affiliation is an appropriate criterion for government employment. Most significantly, we elaborated in McCloud v. Testa on the types of
positions for which it would not violate the First
Amendment to consider party affiliation and set
forth four categories of public employment that fall
“with reasonable certainty” within the Elrod-Branti
exception:
Category One: positions specifically named in
relevant federal, state, county, or municipal law
to which discretionary authority with respect to
the enforcement of that law or the carrying out
of some other policy of political concern is
granted;
Category Two: positions to which a significant
portion of the total discretionary authority
available to category one position-holders has
been delegated; or positions not named in law,
possessing by virtue of the jurisdiction’s pattern
or practice the same quantum or type of discretionary authority commonly held by category
one positions in other jurisdictions;
Category Three: confidential advisors who
spend a significant portion of their time on the
job advising category one or category two position-holders on how to exercise their statutory
or delegated policymaking authority, or other
confidential employees who control the lines of

13a
communications to category one positions, category two positions or confidential advisors;
Category Four: positions that are part of a
group of positions filled by balancing out political party representation, or that are filled by
balancing out selections made by different governmental agents or bodies.
97 F.3d 1536, 1557 (6th Cir. 1996) (footnotes omitted). Further, the McCloud court instructed that
where there is “any ambiguity” in determining
whether a particular position falls within one of the
categories, “it is to be construed in favor of the governmental defendants” at least when the position is
“unclassified or non-merit under state law.” Id. It also provided examples of positions in each category.
Relevant here, we explained that “a gubernatoriallyappointed Democratic economist placed on a revenue
forecasting committee consisting by law of two economists (one Republican and one Democrat) chosen by
the state legislature, two economists of similar party
affiliation chosen by the governor, and one economist
of any party chosen by the president of the state’s
most prominent university” would fall within Category Four. Id.
More recently, in Peterson v. Dean, we considered
whether Tennessee’s county election administrators
were subject to patronage dismissals under the Elrod-Branti exception. 777 F.3d 334, 336 (6th Cir.
2015). Tennessee law requires the State Election
Commission to appoint five election commissioners
for each county, with three members being of the
majority party and two members of the minority party. Id. at 338. The county commissioners, in turn,
were required to “appoint an administrator of elec-

14a
tions” to serve as the “chief administrative officer of
the commission.” Id. Eight of these county administrators were ousted from their positions allegedly because of their actual or perceived political affiliation.
They then filed suit under 42 U.S.C. § 1983, claiming
that their patronage dismissals violated their First
and Fourteenth Amendment rights. Id. at 340. On
appeal, the parties agreed that “the common and
controlling issue was whether the statutory position
of county administrator of elections in Tennessee
[was] lawfully subject to patronage dismissal” under
Elrod and Branti. Id. at 337.
In concluding the administrators fell within the
exception, we started from the premise that county
election commissioners in Tennessee were Category
One employees under McCloud because their positions were statutorily established and vested with
discretionary authority to carry out functions of political concern. See id. at 345. From there, we observed that “[c]ategory two is constructed to recognize that it may be necessary to deny First Amendment protection not just to positions at the very top
of any state administrative hierarchy, but in some
cases to those occupying levels a bit farther down the
hierarchy.” Id. at 345 (quoting McCloud, 97 F.3d at
1557 n.31). Thus election administrators “neatly fit[
]” into Category Two because “the position [was] one
to which a significant amount of the total discretionary authority available to category one employees
ha[d] been delegated.” Id. at 346 (quoting Summe v.
Kenton Cty. Clerk’s Office, 604 F.3d 257, 266 (6th
Cir. 2010)).
Writing in dissent, Judge Clay disagreed. In his
view, the county election commissioners were not
Category One employees because they did not “exer-

15a
cise meaningful discretion on issues where there is
room for principled disagreement on the goals or
their implementations.” 777 F.3d at 352 (Clay, J.,
dissenting) (internal quotation marks omitted).
Judge Clay instead concluded that they were subject
to patronage dismissals because their positions fell
within Category Four, given that they were “filled by
balancing out political party representation.” Id.
(quoting McCloud, 97 F.3d at 1557). Accordingly,
while he concluded that county administrators could
not be discharged for their political affiliation, all
three members of the panel agreed that the county
election commissioners were subject to patronage
dismissals. Id.
C.
Applying the foregoing precedent to the plaintiffs’
claim, the district court properly granted summary
judgment in favor of defendants because OEC Commissioners fall within Category Four of the McCloud
framework, and Ohio may thus condition employment on the OEC on party affiliation. They are akin
to the supervisory judges discussed in Branti, 445
U.S. at 518, 100 S.Ct. 1287, the economists appointed to maintain partisan balance in McCloud, 97 F.3d
at 1557, and the county election commissioners in
Peterson, 777 F.3d at 346; id. at 352 (Clay, J., dissenting). Accordingly, § 3517.152(A)(1) is not an unconstitutional condition on government employment
because it is “appropriate” for Ohio to consider political affiliation to serve its stated interest in maintaining partisan balance among the members of the
OEC. For this reason, § 3517.152(A)(1) does not violate plaintiffs’ First Amendment rights.
Plaintiffs’ arguments to the contrary are not per-

16a
suasive. First, they compare § 3517.152(A)(1) to laws
prohibiting persons from government service based
on immutable characteristics or laws that require a
person seeking public employment to profess a certain belief or disbelief in religion, or laws requiring a
person to forswear membership in a “disfavored political organization” for government employment.
The challenged law is similar, in their view, because
it “condition[s] one’s full participation in Ohio’s political community and electoral machinery on forfeiting
her freedom of association.” Therefore, the argument
goes, “[b]anning members of minor parties from office is no more constitutional than banning Jews or
Republicans from office.”
We disagree. Section 3517.152(A)(1) does not single out any ideology, viewpoint, or protected class. It
instead operates such that whichever parties are the
two most represented factions in the Ohio legislature—for now the Republicans and the Democrats,
but subject to change should another party achieve
greater electoral success—receive three seats each
on the OEC with one additional seat to a person with
no political affiliation. There is no comparison to be
drawn from laws which afford equality of opportunity to all political parties, and those that expressly
prohibit a person from government employment because of a protected characteristic. Cf. American
Party of Texas v. White, 415 U.S. 767, 781, 94 S.Ct.
1296, 39 L.Ed.2d 744 (1974) (holding that it is not
invidious discrimination for a state to grant minor
parties official recognition, but deny them the right
to hold primaries even though the main political parties are so entitled); Jenness v. Fortson, 403 U.S.
431, 440, 91 S.Ct. 1970, 29 L.Ed.2d 554 (1971) (holding that Georgia did not violate the First or Four-

17a
teenth Amendment rights of independent candidates
or unrecognized political parties by requiring that
they petition for access to the ballot, while recognized parties—who attained twenty percent of the
vote in a prior election—obtained ballot access by
holding a primary election); see also Werme v. Merrill, 84 F.3d 479, 484–85 (1st Cir. 1996) (“[T]he Libertarian Party has exactly the same opportunity to
qualify as a source of election inspectors and ballot
clerks under New Hampshire law as does any other
party. Equality of opportunity exists, and equality of
opportunity—not equality of outcomes—is the linchpin of what the Constitution requires in this type of
situation.”).
Second, the LPO attempts to draw a distinction
between “discretionary hiring and firing decisions”
and “statutory categorical disqualifications” because
Elrod and the cases that follow govern only the former and do not bear on the latter. This distinction is
not borne out by our caselaw. Look no further than
McCloud or Peterson. In each of those cases, our
court clearly contemplated statutory schemes that
would result in “categorical” exclusions to maintain
partisan balance. The touchstone under Elrod and
Branti is whether the State of Ohio can demonstrate
that party affiliation is an “appropriate” requirement
for the effective performance of the public office involved. See Branti, 445 U.S. at 518, 100 S.Ct. 1287.
That remains the standard whether Ohio is justifying hiring criteria as in Rutan or the discharge of an
existing employee like Branti. We thus reject plaintiffs’ attempt to recast decades of precedent. 5
Plaintiffs also contend that we should follow the Third Circuit’s reasoning from Adams and conclude that commissioners

5

18a
V.
For these reasons, we affirm the judgment of the
district court.

are not policymakers. Defendants respond that Adams is contrary to our precedent, citing Newman v. Voinovich, 986 F.2d
159 (6th Cir. 1993). We need not address this purported conflict
because the Supreme Court vacated our sister court’s opinion
and remanded with instructions to dismiss the case for lack of
jurisdiction. Carney, 141 S. Ct. at 503.

19a
APPENDIX B
United States District Court,
S.D. Ohio, Eastern Division
LIBERTARIAN PARTY OF OHIO, et al., Plaintiffs,
v.
Degee WILHEM, et al., Defendants.
Case No. 2:19-cv-02501
Signed 06/05/2020
Mark George Kafantaris, Kafantaris Law Offices,
Mark R. Brown, Columbus, OH, for Plaintiffs.
Julie M. Pfeiffer, Brandi R. Laser Seskes, J. Andrew Fraser, Tiffany L. Carwile, Ohio Attorney General’s Office Constitutional Offices Section, Columbus, OH, for Defendants.
OPINION & ORDER
ALGENON L. MARBLEY,
STATES DISTRICT JUDGE

CHIEF

UNITED

I. INTRODUCTION
This matter is before the Court on three Motions:
(1) Defendants’ Motion for Summary Judgment; (2)
Plaintiffs’ Motion for Reconsideration of the Court’s
Opinion and Order Denying Plaintiffs’ Motions for a
Preliminary Injunction and for Summary Judgment;
and (3) Plaintiffs’ Motion for Leave to File a SurReply to Defendants’ Motion for Summary Judgment. Docs. 49, 51, 56. The Motions are ripe for review and the Court will resolve each of them without
oral argument. For the reasons set forth below, the
Court GRANTS Defendants’ Motion for Summary
Judgment [#49], DENIES Plaintiffs’ Motion for Re-

20a
consideration [#51], and DENIES Plaintiffs’ Motion
to File a Sur-Reply [#56].
II. BACKGROUND
On September 24, 2018, the Libertarian Party of
Ohio and Harold Thomas (“Plaintiffs”), as Party
chair, filed complaints with Ohio’s Elections Commission asserting that three organization responsible for facilitating gubernational debates throughout
Ohio in 2018 violated Ohio Revised Code § 3599.03,
which governs corporate campaign contributions.
Doc. 1 at 39-41. Plaintiffs claimed that these organizations, by staging an exclusive debate between the
Democratic and Republican gubernational candidates, and by not notifying or inviting Plaintiffs’ gubernational candidate or employing objective criteria
in selecting debate participants, engaged in illegal
corporate campaign contributions. Id. According to
Plaintiffs, the Commission’s legal counsel advised
the Commission that the debates had been illegally
coordinated, staged, planned, and sponsored under
Ohio law, and recommended that the Commission
find these organizations in violation of the state’s
campaign finance laws. Id. at 41. But Philip Richter,
legal counsel to the Commission, denied that he ever
made this recommendation. To the contrary, he attests that he recommended that the Commission find
no violation. In any case, on December 6, 2018, the
Commission dismissed Plaintiffs’ administrative
complaints, finding no violation had occurred. Id. at
42.
On June 15, 2019, Plaintiffs sued the individual
Commissioners on Ohio’s Elections Commission
(“Defendants”) in their official capacity for violating
Plaintiffs’ First and Fourteenth Amendment rights.

21a
In Count One, Plaintiffs brought a First Amendment
challenge to Ohio Revised Code § 3517.152, which
restricts membership on Ohio’s Elections Commission to affiliates of the two major political parties. In
Counts Two and Three, Plaintiffs alleged that Defendants violated their First and Fourteenth
Amendment rights by selectively choosing not to enforce Ohio’ campaign finance laws and by dismissing
their administrative complaints. The Court, however, dismissed Counts Two and Three after finding
Plaintiffs lacked standing to assert those claims. See
Doc. 29.
On November 25, 2019, the Court held a hearing
on Plaintiffs’ Motion for a Preliminary Injunction,
where Plaintiffs asked the Court to do the following:
(1) declare that O.R.C. § 3517.152 violates the First
Amendment; (2) prohibit the state of Ohio from enforcing O.R.C. § 3517.152; (3) direct Defendants to
vacate their prior dismissal of Plaintiffs’ administrative complaints; (4) direct Defendants to refer Plaintiffs’ administrative complaints to a neutral decision
maker; (5) enjoin Defendants, as currently constructed, from considering administrative complaints
brought against or on behalf of minor political candidates; and (6) direct Defendant, as currently constructed, to refer administrative complaints brought
against or on behalf of minor political parties or
their candidates to neutral decision makers. On
January 13, 2020, the Court issued an Opinion and
Order Denying Plaintiffs’ Motion for a Preliminary
Injunction. See Doc. 50. In addition, that Opinion
and Order Denied Plaintiffs’ First and Second Motions for Summary Judgment because the Motions
turned on the same legal question presented in the
Motion for a Preliminary Injunction.

22a
Now before the Court are three Motions. First,
Defendants move for summary judgment on Plaintiffs’ First Amendment challenge to O.R.C. §
3517.152. Second, Plaintiffs ask the Court to reconsider its Opinion and Order Denying their Motions
for a Preliminary Injunction and for Summary
Judgment. Finally, Plaintiffs move for leave to file a
sur-reply to Defendants’ Motion for Summary Judgment.
III. STANDARD OF REVIEW
Federal Rule of Civil Procedure 56(a) provides
that a court may grant summary judgment if “the
movant shows there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a). No dispute
of material fact exists where the record “taken as a
whole could not lead a rational trier of fact to find for
the non-moving party.” Matsushita Elec. Indus., Co.
v. Zenith Radio Corp., 475 U.S. 574, 587, 106 S.Ct.
1348, 89 L.Ed.2d 538 (1986). In analyzing a motion
for summary judgment, the court must evaluate
“whether the evidence presents a sufficient disagreement to require submission to a jury or whether
it is so one-sided that one party must prevail as a
matter of law.” Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 251-52, 106 S.Ct. 2505, 91 L.Ed.2d 202
(1986).
IV. ANALYSIS
A. Plaintiffs’ Motion for Reconsideration
Plaintiffs ask the Court to reconsider its Opinion
and Order Denying their Motions for a Preliminary
Injunction and for Summary Judgment. This Court
has previously opined on the landscape surrounding

23a
motions for reconsideration and expressed how it
views them disfavorably:
As a general principle, motions for reconsideration are looked upon with disfavor unless the
moving party demonstrates one of the following: (1) a manifest error of law; (2) newly discoverable evidence which was not previously
available to the parties; or (3) intervening
change of controlling law. Neither the passage
of time, during which the legal landscape did
not change, nor a different spin on the same arguments, is a proper basis for a motion for reconsideration. Furthermore, mere dissatisfaction with a Court’s ruling is an inappropriate
and insufficient ground to support a motion for
reconsideration. This doctrine reflects the
sound policy that litigation should not be subject to instant replays but rather decided and
put to rest.
Ohio Midland, Inc. v. Proctor, 2006 WL 3793311, at
*2 (S.D. Ohio Nov. 28, 2006) (Marbley, J.) (internal
quotations and citations omitted).
Here, Plaintiffs argue that the Court’s reliance on
Pirincin v. Board of Elections, 368 F. Supp. 64 (N.D.
Ohio 1973), and Werme v. Merrill, 84 F.3d 479 (1st
Cir. 1996), for the proposition that O.R.C. § 3517.12
is not discriminatory towards minor political parties,
such as the Libertarian Party of Ohio, is misplaced.
Plaintiffs contend, among other things, that these
cases, and particularly Pirincin, are factually dissimilar, outdated, and no longer have precedential value. Notably, Plaintiffs did not address Werme in
their reply briefing to the Motion for a Preliminary
Injunction and allotted only two sentences to address

24a
Pirincin, despite Defendants relying heavily on both
authorities. See Plaintiffs’ Reply Brief, Doc. 44 at 11
(“Pirincin v. Board of Elections, 368 F. Supp. 64
(N.D. Ohio), aff’d, 414 U.S. 990, 94 S.Ct. 345, 38
L.Ed.2d 231 (1973), does not support OEC’s argument. The laws challenged there actually allowed
members of minor parties to serve on local election
boards, a fact expressly noted in the opinion.”). Yet,
Plaintiffs now cry foul and attempt to use their Motion for Reconsideration as a vehicle to advance eleven pages worth of arguments that should have been
raised earlier. A motion for reconsideration, however, is not an opportunity for a do-over. Aero-Motive
Co. v. Great Am. Ins., 302 F. Supp. 2d 738, 740
(2003) (“[A] motion for reconsideration may not be
used to raise issues that could have been raised in
the previous motion[.]”). Moreover, given that neither Pirincin nor Werme have ever been overturned,
the Court properly relied on these cases as persuasive authority.
Alternatively, Plaintiffs suggest that a change in
the law warrants reconsideration of their Motions.
Namely, Plaintiffs point to the Sixth Circuit’s recent
decision in Daunt v. Benson, 956 F.3d 396 (6th Cir.
2020), where the court struck down a challenge to
the composition of Michigan’s Independent Citizens
Redistricting Commission. But that opinion only further supports the Court’s decision Denying Plaintiffs’
Motions for a Preliminary Injunction and for Summary Judgment. As will be discussed below, Daunt
affirms that the Court used the proper framework to
analyze Plaintiffs’ First Amendment claim. Accordingly, Plaintiffs’ Motion for Reconsideration [#51] is
DENIED.

25a
B. Defendants’ Motion for Summary Judgment
As a threshold matter, Plaintiffs have moved for
leave to file a sur-reply to Defendants’ Motion for
Summary Judgment. Plaintiffs assert that a surreply is necessary to correct Defendants’ claim that
Eleventh Amendment immunity is coextensive with
Article III subject-matter jurisdiction. The Court,
however, is fully capable of assessing the state of the
law surrounding Eleventh Amendment immunity
without the aid of additional briefing. Furthermore,
it is unnecessary to reach the issue of sovereign immunity because Count One of Plaintiffs’ Complaint
raises only a facial challenge to O.R.C. § 3517.152, as
opposed to an as-applied challenge seeking retroactive relief. See Edelman v. Jordan, 415 U.S. 651,
677, 94 S.Ct. 1347, 39 L.Ed.2d 662 (1974) (holding “a
federal court’s remedial power, consistent with the
Eleventh Amendment, is necessarily limited to prospective injunctive relief”). For these reasons, Plaintiffs’ Motion for Leave to File a Sur-Reply [#56] is
DENIED. With that decided, the Court now turns to
Defendants’ Motion for Summary Judgment, where
they ask the Court to dismiss Plaintiffs’ First
Amendment challenge to O.R.C. § 3517.152.
In Count One of the Complaint, Plaintiffs allege
that O.R.C. § 3517.152, which restricts membership
on Ohio’s Elections Commission to affiliates of the
two major political parties, violates the First
Amendment. In relevant part, that statute provides:
[T]he speaker of the house of representatives
and the leader in the senate of the political party of which the speaker is a member shall jointly submit to the governor a list of five persons
who are affiliated with that political party....

26a
[T]he two legislative leaders in the two houses
of the general assembly of the major political
party of which the speaker is not a member
shall jointly submit to the governor a list of five
persons who are affiliated with the major political party of which the speaker is not a member.... [T]he governor shall appoint three persons from each list to the commission.
[A]fter the governor appoints these six members, they shall, by a majority vote, appoint to
the commission a seventh member, who shall
not be affiliated with a political party.
O.R.C. § 3517.152(a)(1). Plaintiffs contend that the
Commissions’ eligibility criteria is unconstitutional
because it restricts membership to affiliates of the
two major political parties, without providing a route
for minority party affiliates to seek membership. See
Doc. 1 at 48.
Recently, in Daunt v. Benson, 956 F.3d 396 (6th
Cir. 2020), the Sixth Circuit took up a similar First
Amendment challenge to a ballot initiative establishing Michigan’s Independent Citizens Redistricting
Commission. There, the initiative disqualified from
serving on the Commission eight classes of individuals who currently, or in the past six years, had any of
the following political ties:
(1) A declared candidate for partisan federal,
state, or local office;
(2) An elected official to partisan federal, state,
or local office;
(3) An officer or member of the governing body
of a national, state, or local political party;

27a
(4) A paid consultant or employee of a federal,
state, or local elected official or political candidate, or a federal, state, or local political candidate’s campaign or of a political action committee;
(5) An employee of the legislature;
(6) Any person who is registered as a lobbyist
agent with the Michigan bureau of elections, or
any employee of such person;
(7) An unclassified state employee who is exempt from classification in state civil service
pursuant to article XI, section 5, except for employees of courts of record, employees of the
state institutions of higher education, and persons in the armed forces of the state; or
(8) A parent, stepparent, child, stepchild, or
spouse of any individual identified above.
Id. at 2. Recognizing that the proper framework
through which the constitutionality of the Commission’s eligibility criteria should be analyzed was a
matter of first impression, the Sixth Circuit looked
to the Anderson-Burdick test (which this Court used)
and the unconstitutional-conditions doctrine, concluding that the Commission’s composition withstood
scrutiny under both. Following the Sixth Circuit’s
lead, this Court will analyze Plaintiffs’ First
Amendment challenge to O.R.C. § 3517.12(a)(1) under both the Anderson-Burdick test and the unconstitutional-conditions doctrine.
1. Whether the Statute Survives Scrutiny under the Anderson-Burdick Test
In Anderson v. Celebrezze, 460 U.S. 780, 788-89,
103 S.Ct. 1564, 75 L.Ed.2d 547 (1983), and Burdick

28a
v. Takushi, 504 U.S. 428, 433-34, 112 S.Ct. 2059, 119
L.Ed.2d 245 (1992), the Supreme Court articulated a
flexible framework for testing the validity of state
election regulations. Although the cases that the Supreme Court has analyzed under this framework
have generally “involved laws that regulate the actual administration of elections, the rationales for
applying the Anderson-Burdick test—ensuring that
the democratic processes are fair and honest and
maintain[ing] the integrity of the democratic process—resonate here, too.” Daunt, 956 F.3d at 406-07
(internal quotations and citations omitted). Indeed,
at its core, “the Anderson-Burdick framework is used
for evaluating state election law[s] and a law restricting membership of the body” responsible for
governing electoral matters in the state of Ohio
“could conceivably be classified as an election law.”
Id. (internal quotations and citation omitted).
Under the Anderson-Burdick framework, the level
of scrutiny to be applied corresponds with the degree
to which a challenged regulation burdens First and
Fourteenth Amendment rights. Thus, the Court
“must first consider the character and magnitude of
the asserted injury to the rights protected by the
First and Fourteenth Amendments that the plaintiff
seeks to vindicate” and then “evaluate the precise
interests put forward by the State as justifications
for the burden imposed by its rule.” Anderson, 460
U.S. at 789, 103 S.Ct. 1564. The Supreme Court
simplified this inquiry in Burdick:
Under this standard, the rigorousness of our
inquiry into the propriety of a state election law
depends upon the extent to which a challenged
regulation burdens First and Fourteenth
Amendment rights. Thus, as we have recog-

29a
nized when those rights are subjected to severe
restrictions, the regulation must be narrowly
drawn to advance a state interest compelling
importance. But when a state election law provision imposes only reasonable, nondiscriminatory restrictions upon the First and Fourteenth
Amendment rights of voters, the State’s important regulatory interests are generally sufficient to justify restrictions.
504 U.S. at 434, 112 S.Ct. 2059 (internal quotations
and citations omitted).
Importantly, “[r]egulations falling somewhere in
between—i.e., regulations that impose a more-thanminimal but less-than-severe burden—require a flexible analysis, weighing the burden on the plaintiffs
against the state’s asserted interest and chosen
means of pursuing it.” Daunt, 956 F.3d at 407 (quoting Ohio Democratic Party v. Husted, 834 F.3d 620,
627 (6th Cir. 2016)) (internal quotations omitted).
Determining whether the burden is severe or incidental requires examining “content-neutrality and
alternate means of access.” Id. (quoting Citizens for
Legislative Choice v. Miller, 144 F.3d 916, 920 (6th
Cir. 1998)). A law would not be content-neutral, and
would impose a severe burden if, for example, it
“limit[ed] political participation by an identifiable
political group whose members share a particular
viewpoint, associational preference, or economic status.” Id. (quoting Anderson, 460 U.S. at 793, 103
S.Ct. 1564). In the same vein, a law would impose a
severe burden if it left “few alternate means of access to the ballot,” “restrict[ing] the availability of
political opportunity.” Id. (quoting Anderson, 460
U.S. at 793, 103 S.Ct. 1564) (internal quotations
omitted).

30a
Here, O.R.C. § 3517.152(a)(1) does not impose a
severe burden on rights guaranteed by the First
Amendment, as the statute is content neutral and
does not limit political participation by an identifiable political group. To be sure, O.R.C. §
3517.152(a)(1) does not limit service on Ohio’s Elections Commission to members of the Democratic and
Republican parties; rather, it limits service to affiliates of the two major political parties in the state of
Ohio, without reference to a specific party. While in
practice, the statute currently prohibits any person
affiliated with a minor political party, such as Ohio’s
Libertarian Party, from being considered for membership on the Commission, the statute does not
foreclose the opportunity for a minor political party
to build its base and become one of the two major
parties in the state, which would in turn provide an
avenue for its members to serve on the Elections
Commission. O.R.C. § 3517.152(a)(1), therefore, is a
generally applicable, nondiscriminatory regulation
providing equality of opportunity. The First Circuit,
in Werme v. Merrill, upheld an identical scheme in
the selection of election inspectors and ballot clerks
in the state of New Hampshire. 84 F.3d 479, 484-85
(1st Cir. 1996) (“New Hampshire’s regulation is nondiscriminatory, that is, it does not differentiate
among Republicans, Democrats and Libertarians.
Instead, the regulation conditions the right to appoint election inspectors and ballot clerks on a certain degree of success at the polls. Distinguishing
between recognized political parties based on past
electoral accomplishment is not per se invidiously
discriminatory. So here: the Libertarian Party has
exactly the same opportunity to qualify as a source
of election inspectors and ballot clerks under New

31a
Hampshire law as does any other party. Equality of
opportunity exists, and equality of opportunity—not
equality of outcomes—is the linchpin of what the
Constitution requires in this type of situation.”); see
Pirincin v. Bd. of Elections of Cuyahoga Cty., 368 F.
Supp. 64, 71-72 (N.D. Ohio 1973) (“At the present
time the secretary makes appointments to the county boards of elections from the Republican and Democratic parties because these parties are the two that
have pulled the highest number of votes for governor. However, Section 3501.06 protects against locking in these two parties. Another political party may
recommend persons to fill positions on boards of
elections should that third political party amass the
highest or the next highest number of votes in the
state at the last preceding gubernational election....
Thus, the opportunity to have representation on
each county board of elections is available to all political parties.”).
Additionally, the state of Ohio has important regulatory interests sufficient to justify O.R.C. §
3517.152’s minimal restrictions. See Burdick, 504
U.S. at 434, 112 S.Ct. 2059 (“[W]hen a state election
law provision imposes only reasonable, nondiscriminatory restrictions upon the First and Fourteenth
Amendment rights of voters, the State’s important
regulatory interests are generally sufficient to justify
the restrictions.”). Certainly, Ohio has an interest in
ensuring that political balance on its Elections
Commission protects the fairness of the deliberative
process and that judicial and policy-making decisions are well-rounded and diversified. Plaintiffs
previously conceded this point. See Doc. 37 at 16
(“Plaintiffs concede that Ohio, like Delaware, has a
legitimate interest in political balance in the context

32a
of investigating and adjudicating election disputes.”).
Further, requiring bipartisanship on an Elections
Commission is universally regarded as an effective
means of preventing fraud and ensuring honest elections. See Vintson v. Anton, 786 F.2d 1023, 1025
(11th Cir. 1986) (“Appellants admit that Alabama
constitutionally may, as all States do, so far as we
are aware, follow the practice of requiring bipartisanship in the composition of election boards. Such
adversary partisan confrontation is universally regarded as an effective means of preventing fraud and
ensuring honest elections.”). Finally, political balance achieves fairness, consistency, and objectivity.
See Gill v. State of Rhode Island, 933 F. Supp. 151,
156 (D.R.I. 1996) (“The provisions ensure fairness by
providing for a bipartisan board.”).
In short, O.R.C. § 3517.152(a)(1) imposes only a
reasonable, nondiscriminatory restriction upon the
First Amendment rights of minority political parties
seeking membership on Ohio’s Elections Commission. Moreover, the statute advances the state’s important regulatory interests by implementing a
checks and balances system between the state’s two
major political parties, while providing minority parties the same opportunity to seek representation on
the Commission should they garner the necessary
voter support. For these reasons, O.R.C. §
3517.152(a)(1) survives scrutiny under the Anderson-Burdick test.
2. Whether the Statute Survives Scrutiny under the Unconstitutional-Conditions Doctrine
The other potential framework through which the
Court can evaluate Plaintiffs’ First Amendment
challenge is the unconstitutional conditions doctrine.

33a
This is the framework for which Plaintiffs advocate.
See Plaintiffs’ Response Brief, Doc. 52 at 11 (“Today,
political restriction placed on governmental positions
are not judged under the right to vote, and are not
treated as restrictions on the franchise/electoral process. Rather, they are measured by the unconstitutional conditions doctrine announced and applied in
post-1973 cases like Elrod, Branti, and Connick. The
critical question is whether government is disregarding political affiliation, as it must, or is using political affiliation as a qualification for employment.”). In
essence, Plaintiffs argue that O.R.C. § 3517.152(a)(1)
improperly subjects members of minor political parties to an adverse employment action due solely to
their political affiliation.
In Elrod v. Burns, the Supreme Court held that
the practice of patronage dismissals—firing government employees due to disloyalty to an incumbent
party—violated the First Amendment because these
types of dismissals restrict political belief and association. 427 U.S. 347, 372, 96 S.Ct. 2673, 49 L.Ed.2d
547 (1976). Later, in Branti v. Finkel, the Court
qualified its holding in Elrod and instructed that
“party affiliation may be an acceptable requirement
for some types of employment.” 445 U.S. 507, 517,
100 S.Ct. 1287, 63 L.Ed.2d 574 (1980). The Court
noted that “if an employee’s private political beliefs
would interfere with the discharge of his public duties, his First Amendment rights may be required to
yield to the State’s vital interest in maintaining governmental effectiveness and efficiency.” Id. The
Court thus concluded that the pertinent question “is
whether the hiring authority can demonstrate that a
party affiliation is an appropriate requirement for

34a
the effective performance of the public office involved.” Id. at 518, 100 S.Ct. 1287.
Building upon Supreme Court precedent, the
Sixth Circuit in McCloud v. Testa identified several
categories of employment positions where it would
be acceptable per se to consider party affiliation. 97
F.3d 1536, 1557 (6th Cir. 1996). One category is particularly relevant here:
Category Four: positions that are part of a
group of positions filled by balancing out the
political party representation, or that are filled
by balancing out selections made by different
governmental agents or bodies.
Id. The Sixth Circuit provided the following example
as an illustration:
Category Four: a gubernationally-appointed
Democratic economist placed on a revenue forecasting committee consisting by law of two
economists (one Republican and one Democrat)
chosen by state legislature, two economists of
similar party affiliation chosen by the governor,
and one economist of any party chosen by the
president of the state’s most prominent university.
Id. Ohio’s Elections Commission appears to fall
squarely within this fourth category.
Previously, the Court declined to foreclose Plaintiffs’ First Amendment challenge under McCloud,
finding the Sixth Circuit “did not contemplate a
statute such as O.R.C. § 3517.152 that makes affiliation with a minor political party a disqualifying factor.” See Doc. 29 at 11. In doing so, however, the
Court neglected to give proper deference to the Sixth
Circuit’s charge to construe any ambiguities in favor

35a
of governmental defendants. See McCloud, 97 F.3d
at 1557 (“In connection with using these categories,
we note that if there is any ambiguity about whether
a particular position falls into any of them (and so
also within the Branti exception), it is to be construed in favor of the governmental defendants when
the position at issue is unclassified or non-merit under state law per the Rice canon.”). Moreover, O.R.C.
§ 3517.152 more accurately conditions membership
on the Elections Commission on a political party’s
success at the polls, which is not discriminatory per
se. See Werme, 84 F.3d at 484-85; Pirincin, 368 F.
Supp. at 71-72.
Finally, the Court is reminded that the ultimate
inquiry is whether the state of Ohio can demonstrate
that party affiliation is an appropriate requirement
for the effective performance of the public office involved. See Branti, 445 U.S. at 518, 100 S.Ct. 1287.
Two reasons support this finding. First, the Elections Commission, like judges, acts in a quasijudicial capacity. See O.A.C. §§ 3517-1-14-(B)(3) &
(C) (noting the Commission is authorized to find violations of Ohio’s campaign finance laws, assess fines,
and refer violations to the local prosecutor). The
Sixth Circuit has unequivocally stated that judges
are policymakers within the meaning of Elrod and
Branti, and thus, can be appointed based on political
considerations. See Newman v. Voinovich, 986 F.2d
159, 163 (6th Cir. 1993) (“[J]udges are policymakers
because their political beliefs influence and dictate
their decisions on important jurisprudential matters.
Therefore, we believe that Governor Voinovich’s appointment of judges based on political considerations
is consistent with Elrod, Branti, and Rutan.”) (internal citation omitted); cf. Adams v. Governor of Dela-

36a
ware, 922 F.3d 166, 181 (3d Cir. 2019) (“We ... conclude that state judges do not fall within the policymaking exception because affiliation with a particular political party is not a requirement for the effective performance of the judicial role.”). Additionally,
the Commission has other explicit policy-making
functions, such as the ability to recommend legislation and issue advisory opinions. See O.R.C. §
3517.153(D); Elrod, 427 U.S. at 368, 96 S.Ct. 2673
(“In determining whether an employee occupies a
policymaking position, consideration would also be
given to whether the employee acts as an adviser or
formulates plans for the implementation of broad
goals.”). Second, as discussed at length above, Ohio
has an important interest in ensuring that political
balance on its Elections Commission protects the
fairness of the deliberative process and that judicial
and policy-making decisions are well-rounded and
diversified. To that end, O.R.C. § 3517.152(a)(1) establishes a bipartisan Commission that has an inherent system of checks and balances. See Vintson,
786 F.2d at 1025 (11th Cir. 1996) (“Appellants admit
that Alabama constitutionally may, as all States do,
so far as we are aware, follow the practice of requiring bipartisanship in the composition of election
boards. Such adversary partisan confrontation is
universally regarded as an effective means of preventing fraud and ensuring honest elections.”); Gill,
933 F. Supp. at 156 (“The provisions ensure fairness
by providing for a bipartisan board.”). Accordingly,
O.R.C. § 3517.152(a)(1) withstands scrutiny under
the unconstitutional conditions doctrine and Defendants’ Motion for Summary Judgment is
GRANTED.

37a
V. CONCLUSION
For the reasons stated herein, the Court
GRANTS Defendants’ Motion for Summary Judgment [#49], DENIES Plaintiffs’ Motion for Reconsideration [#51], and DENIES Plaintiffs’ Motion to
File a Sur-Reply [#56]. Plaintiffs’ Complaint is hereby DISMISSED.
IT IS SO ORDERED.

38a
APPENDIX C
No. 20-3585
United States Court of Appeals
for the Sixth Circuit
Filed March 19, 2021
LIBERTARIAN PARTY OF OHIO AND HAROLD
THOMAS,
Plaintiffs-Appellants,
v.
DEGEE WILHEM, HELEN E. BALCOLM, OTTO
BEATTY, III, DENNIS BROMMER, DON MICHAEL CRITES, CATHERINE A. CUNNINGHAM,
AND A. SCOTT NORMAN, IN THEIR OFFICIAL
CAPACITIES,
Defendants-Appellees.
ORDER
BEFORE: GRIFFIN, KETHLEDGE, and WHITE,
Circuit Judges.
The court received a petition for rehearing en
banc. The original panel has reviewed the petition
for rehearing and concludes that the issues raised in
the petition were fully considered upon the original
submission and decision of the case. The petition
then was circulated to the full court. * No judges has
requested a vote on the suggestion for rehearing en
banc.
Therefore, the petition is denied.
ENTERED BY ORDER OF THE COURT
/s/ Deborah S. Hunt, Clerk
Judge Murphy recused himself from participation in this ruling.
*

